These documents are being provided to you for informational purposes only. There are two parts to our Cardholder
Agreement: The Pricing Information Addendum and the Cardholder Agreement. The Pricing Information Addendum
shows a range of terms that may be offered on new accounts. The terms that apply to you will differ depending on
your specific card offer. The Cardholder Agreement contains important information related to consumer credit cards
issued by The Bank of Missouri. Pricing is accurate as of April 2021.

PRICING INFORMATION ADDENDUM
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

22.74% to 36%, based on your creditworthiness.

APR tor Cash Advances

25.74% to 36%, based on your creditworthiness.

APR for Balance Transfers

25.74% to 36%, based on your creditworthiness.

Penalty APR

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on cash advances and
balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at www.consumerfinance.gov/learnmore.

Fees

.
.


Annual Fee

$49 to $175; after that $0 to $49 annually.

Account Maintenance Fee

$60 to $159 annually billed at $5 to $12.50 per month after the first year.

Additional Card Fee (Authorized
User)

$25 annually (if applicable)

Transaction Fees


Balance Transfer



Cash Advance

. Foreign Transaction

3% of the amount of each transfer after the first year.

Either $5 or 5% of the amount of each cash advance, whichever is
greater.
3% of each transaction amount in U.S. dollars.

Penalty Fees


Late Payment



Returned Payment

Up to the maximum fee permitted under Section 12 C. F. R. §1026.52(b)(1)(ii) ($40 as

of April 1, 2021). See monthly statement for current fee.

Up to the maximum fee permitted under Section 12 C. F. R. §1026.52(b)(1)(ii) ($40 as

of April 1, 2021). See monthly statement for current fee.

How We Will Calculate Your Balance: We use a method called "average daily balance (including
current transactions)." See the additional terms and conditions in your Cardholder Agreement for more
details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
the additional terms and conditions in your Cardholder Agreement.
Variable Rate: If you have a variable rate APR, your APR will be calculated by adding a Margin of
17.49% to 30.75% to the Prime Rate (the index rate). Variable rate APRs will vary with the market
based on the Prime Rate. As of April 2021 the Prime Rate (as defined in your Cardholder
Agreement) was 5.25%.
Fixed Rate: If you have a fixed rate APR, your APR will not vary with the market.
Additional Card Fee(Authorized User): We will impose an Additional Card Fee (Authorized User) of
$25 for each Authorized User that you name. The fee will be imposed annually for each Authorized User.
Required Minimum Payment Calculation: Greater of (a)(i) 1% of your outstanding balance at the end of a
billing cycle or (ii) $25.00, plus (b) current interest and fees, plus (c) the greater of (i) any past due or (ii) any
amount by which your balance at the end of a billing cycle exceeds your credit limit (see Cardholder
Agreement for more information on your minimum payment).

CARDHOLDER AGREEMENT

NY RESIDENTS: RETAIL INSTALMENT CREDIT AGREEMENT
U.S. VIRGIN ISLANDS RESIDENTS PLEASE READ THIS: The provisions titled “Using Your Account,” “Disputed Payments-Postdated
Checks, Restrictive Endorsement Checks and Other Disputed or Qualified Payments,” “Changes in Terms,” “Assignment; Transfer,”
“Arbitration Provision” and “Billing Rights Notice” restrict or reduce your rights.
MILITARY LENDING ACT DISCLOSURE: Federal law provides important protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated
with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a
credit card account). To hear disclosures related to the Military Lending Act, please call this toll-free number: 1-866-816-6994.
COVERED MILITARY BORROWERS: If you are a “covered borrower,” as defined under the Military Lending Act, 10 U.S.C. § 987, as amended, (i)
the “Arbitration Provision,” (ii) any waiver of right to legal recourse under any state or federal law and (iii) any other provision in this Agreement that is
not enforceable against you under the Military Lending Act does not apply to you so long as you are a “covered borrower.”
GENERAL This Cardholder Agreement (“Agreement”) governs the use of your revolving credit account (your “Account”). In this Agreement and in
your monthly billing statement (“Statement”), “we,” “us,” “our” and “Bank” refer to The Bank of Missouri, including, as applicable, our successors,
assignees and representatives. “You,” “your” and “Cardholder” refer to the person who applied and was approved for the Account and, as
appropriate, all persons authorized to use the Account. “Application” refers to any (i) written or electronic application or acceptance that you signed
or otherwise submitted for this Account or (ii) oral request for credit and a Card, resulting in this Account. “Card” refers to any credit card, Account
number or other credit access device (including any convenience check) that we issue to you. Your Application, any Card carrier that we send with
your Card and the accompanying Pricing Disclosure, any automatic payment plan form, any other written documents (including any electronic
record) evidencing any transactions made under your Account, any notices that we send to you with your Agreement, any special credit terms
disclosures in the initial solicitation letter that we sent you including initial credit limit terms and any special credit terms or rewards terms separately
or subsequently disclosed to you in writing, are part of and incorporated into this Agreement. Please read and keep these documents for your
records. This Agreement begins on the earlier of (a) the date we finally approve your Application for credit or (b) the first date that we extend credit to
you or someone authorized by you on your Account. This Agreement includes an Agreement to Arbitrate Claims (see “Arbitration Provision”
below). Where the terms of this Agreement differ from any special terms that we offer to you in writing, the special terms offered will control, but all
other terms of this Agreement will remain unchanged.
ACCEPTANCE OF THIS AGREEMENT Your activation of your Card, your use of the Account, or any payment made on the Account, evidences
your acceptance of the terms of this Agreement. In New York, this Agreement begins on the first date that you sign a sales slip or memorandum
evidencing the purchase of goods or services.
USING YOUR ACCOUNT You can use your Card to purchase or lease goods or services (including mail, telephone and electronic orders) from
participating establishments (each a “Purchase”) up to any credit limit we may establish for you (your “Credit Limit”). You can also use your Card to
obtain a cash loan (“Cash Advance”) by presenting your Card to any institution that accepts the Card for that purpose or by making a withdrawal of
cash at an ATM. Transactions made with your Account for things like money orders, deposits, wire transfer money orders, travelers cheques,
foreign currency and other similar transactions, will be treated as Cash Advances. From time to time, we may also permit you to obtain credit from
us by making a payment to another creditor of yours (“Balance Transfer”) using forms or other means provided by us. Except as otherwise
specifically provided in this Agreement, a Balance Transfer generally is treated as a Cash Advance, but the fees that may be imposed at the time of
transfer may differ from those applicable to Cash Advances. You may use your Account only for personal, family, or household purposes. You may
not use your Card or your Account for any illegal transaction or any gambling transaction. We may decline transactions for any reason, including,
but not limited to, operational matters, default, or suspected fraudulent or unlawful activity. Transactions above a certain dollar amount may require
authorization by us before the transaction can be approved. We will not be liable for the failure to authorize credit because of operational difficulties
or mistakes. We may limit the number and amount of transactions approved in one day for security reasons, without any liability to you. We are not
responsible for any losses associated with a declined transaction.
AUTHORIZED USERS If you ask us to issue a Card to any other person and we agree to issue them a Card, they are an “Authorized User” of your
Account and will be bound by the terms of this Agreement. We will impose an Additional Card Fee (Authorized User) to issue a Card to an
Authorized User as described below. See “FEES” section below. We may require certain information about them before issuing a Card. We may limit
their ability to use their Card. You authorize them to have access to important information about your Account including available credit so that they
can use their card responsibly. You will be responsible for use of the Account by them and by anyone they allow to use your Account, even if you did
not want, or did not agree to, that use. If you want to remove an Authorized User from your Account, you must contact Customer Service and request
their removal. You also must immediately destroy all Cards in their possession and cancel any transactions that they may have set up on your
Account before their removal. You will be responsible for transactions that they set up before they were removed even if these amounts do not
appear on your Account until later. Authorized Users may remove themselves from your Account upon request. We reserve the right to remove them
from your Account for any reason. To remove them from your Account, we may choose to close your existing Account and issue you a new Account
and replacement Card with a new number.
REWARDS Your Account may provide you with the opportunity to earn rewards. If it does, we will separately provide you with information and terms
about the rewards.
HONORING YOUR CARD We are not liable if a merchant, ATM or other institution does not honor your Card, or if your Card malfunctions.

PROMISE TO PAY You agree to be bound by the terms and conditions of this Agreement. You promise to pay for all Purchases, Cash Advances,
Balance Transfers and all other amounts owed to us under the terms of this Agreement. You promise to make all payments in U.S. dollars and to
submit for payment of your Account only checks or other items drawn on U.S. financial institutions.
YOUR CREDIT LIMIT You agree not to use and not to allow any Authorized User to use your Account in any way that would cause you to go over
your Credit Limit. We may refuse to authorize or accept any transaction on your Account that would cause you to exceed your Credit Limit. We may
establish different Credit Limits for different features of your Account in addition to a general (total) Credit Limit. If you exceed your Credit Limit, you
must pay us the excess amount promptly. We reserve the right not to increase your available credit by the amount of any payment received, for a
period of up to four (4) business days from the date of receipt to provide for processing and verification. Processing speeds can vary depending on
how your payment is cleared.
Your Account represents a continuing offer to extend further credit to you which may be withdrawn at any time. We reserve the right to change (to
set, increase, decrease or remove) the Credit Limit for your Account from time to time in accordance with this Agreement and applicable law.
Certain changes in your Credit Limit may occur without prior written notice to you and may be based upon factors including, but not limited to, antifraud policies and procedures, your record of making timely payments and staying within your established Credit Limit, your credit score and
information contained in your credit report and your proper maintenance of any checking account used to make automatic payments, if applicable.
If approved for an Account, your initial Credit Limit(s) will appear on your Card carrier. Your current Credit Limit(s) can be found on your Statement
or provided upon request. We do not accept Credit Limit increase requests.
You have the right to receive an answer to a written inquiry concerning the status of your Account.
SPECIAL TERMS When we solicit you for an account or from time to time thereafter we may offer special terms in connection with your Account.
These special terms may be limited to certain qualifying transactions. The period of time that special terms may be available may be limited.
Information specific to any special terms will be provided at the time of offer. If you accept a qualified solicitation offer or use your Account to enter
into a qualifying transaction, you will be deemed to have acknowledged and agreed to the special terms disclosed at the time of the offer, which
terms may be modified or differ from the regular terms of this Agreement. No formal amendment of this Agreement will be necessary and all terms of
this Agreement will remain applicable except those inconsistent with the disclosed special terms of the offer. If at any time you fail to comply with the
terms of this Agreement as modified by the special terms of an offer or are otherwise in default of any obligation you owe us, then we may, in our
sole discretion, immediately terminate any special offer terms. We will notify you of the termination of any special terms if (and as) expressly required
by law.
DEFAULT Unless prohibited by applicable law, you will be in default under this Agreement if you: (i) do not make at least the Minimum Payment
required from time to time on or before its Payment Due Date; (ii) exceed your Credit Limit without permission; (iii) tender a payment on your Account
and your payment is returned to us unpaid or otherwise rejected for any reason; (iv) become subject to bankruptcy or insolvency proceedings;
(v) become subject to attachment or garnishment proceedings; (vi) give us any misleading, false, incomplete or incorrect information or false or
fraudulent signature; (vii) die; or (viii) fail to comply with any term of this Agreement or any other agreement that you have with us. Subject to any
notice of default and right to cure or other limitation of applicable law, if you are in default, we may, in addition to any other rights that we may have
under this Agreement: (i) reduce your Credit Limit or cancel your Account; (ii) require you to pay your entire Account balance (including accrued but
unpaid interest and any other fees and charges provided for in this Agreement) immediately; and/or (iii) bring an action to collect all amounts owed.
You agree to pay, to the greatest extent not prohibited by law, our reasonable attorneys’ fees and any collection costs and disbursements and court
fees related to the collection of your Account.
CANCELLATION We may cancel your Account, refuse to allow further transactions, offer credit on different terms or adjust the amount of credit
available to you at any time, with or without cause, subject to applicable limitations of law. We may terminate further transactions on your Account
without notice if you change your address to a jurisdiction in which we do not make credit available at that time. You may close your Account by
writing to us at Account Services, P.O. Box 105555 Atlanta, GA 30348-5555. The terms of this Agreement will continue to apply to any balance that
you owe us until you have paid everything you owe, including any interest and fees due. Account cancellation may adversely affect your credit
history.
STATEMENTS We will send you a Statement for each monthly billing cycle in which (i) the balance of your Account (including unpaid Purchases,
Cash Advances and any Balance Transfers, interest and other fees and charges) on the last day of that billing cycle (the “New Balance”) is greater
than $1 (debit or credit); (ii) we impose interest or a fee; (iii) there is any other activity on your Account; or (iv) as otherwise required by applicable
law. Your Statement will show, among other things, the total minimum payment you must make during the billing cycle (the “Minimum Payment”)
and the date that the Minimum Payment is due (the “Payment Due Date”).
PAYMENT REQUIREMENTS AND CREDITING
Minimum Payment You agree to pay at least the Minimum Payment shown on your Statement by the Payment Due Date shown on the Statement.
You may at any time pay off your entire balance in full or more than the Minimum Payment due without incurring any additional charge.
We reserve the right to change your Minimum Payment requirement from time to time. The Minimum Payment due each month will be an amount
equal to the Required Minimum Payment Calculation disclosed in the accompanying Pricing Disclosure. If your New Balance is less than your
Minimum Payment, your New Balance is due in full. You may at any time make additional payments withoutpenalty.
Authorization Agreement for Automatic Payments If you enrolled in the Automatic Payment Plan, you acknowledge and agree to the following:
(1) You authorize us to initiate electronic funds transfers (EFTs) by debit entries drawn on the bank account, debit or credit card you have identified
to us in your application for this Account or any other account that you identify to us from time to time (“Bank Account”) in the amount of your
required Minimum Payments or in any fixed amount that you specify, as modified by you from time to time. To avoid additional charges, in any
month in which any designated fixed payment amount is less than your Minimum Payment due, you understand and agree that we may deduct or
withdraw your entire Minimum Payment rather than the designated fixed payment amount. If your New Balance is less than the fixed amount you
designate, only the New Balance will be deducted. If you have a Deferred Interest Plan and you enroll in our Automatic Payment Plan, you
will need to make one or more additional payments by mail or by phone to avoid interest. See Deferred Interest Balances below. You have
the right to receive notice of all electronic fund transfers from your Bank Account that vary in amount, and by enrolling, you agree that your monthly
statement will serve as your notice of the amount of your monthly payment. You may change the amount to be deducted or withdrawn at any time.
Your new monthly payment will be effective within 3 business days of our receipt of your instruction. (2) We will initiate authorized EFTs each month
on or after the Payment Due Date shown on your monthly statement. (3) You agree that in the event any debit is rejected or dishonored we may
reinitiate the debit once. (4) You have provided us with all necessary information for the Bank Account that you wish us to debit and the Bank
Account on which the Automated Clearing House (ACH) debit is authorized, is a legitimate, open and active account. You agree to notify us
promptly if this information changes. (5) The origination of ACH transactions must comply with the provisions of U.S. law. (6) Once enrolled,
automatic payments will continue until you notify us that you wish to terminate your enrollment in the Automatic Payment Plan, or until we terminate
your enrollment. You may terminate your enrollment by calling Customer Service at the telephone number shown on your monthly statement. You

must give any notice of termination in such a manner and sufficiently in advance to allow us and your financial institution a reasonable opportunity to
act. We may terminate your enrollment if you fail to keep your Account or your Bank Account in good standing. Delinquency or closure of either
account, for any reason, may result in immediate termination of your enrollment in the Automatic Payment Plan. Also, if there are insufficient funds
in your Bank Account to process any payment, your enrollment in the Automatic Payment Plan may be terminated immediately. (7) We are not
responsible for any fees that may be charged by your depository institution as the result of your participation in the Automatic Payment Plan. (8) You
have the right to review your accounts and to withdraw any privileges previously granted. (9) Participation in the Automatic Payment Plan is not a
requirement of continuing credit under your Account. Enrollment in the Automatic Payment Plan is optional.
Right to Stop Payment and Procedure For Doing So: If you have scheduled monthly payments through the Automatic Payment Plan, you can tell
us to stop any of these payments by calling Customer Service at the telephone number shown on your monthly statement, by sending an e-mail to
service@aspire.com or by writing to us at Customer Service--Automatic Payment Plan Department, P.O. Box 105555, Atlanta, GA 30348-5555. If
you send us an email or write to us, your request must reach us at least 3 business days before the scheduled Payment Due Date. If you call us, we
may require you to put your request in writing and to deliver your request to us within 14 days after you call. We may charge you a fee for each stop
payment request that you give us. If you tell us to stop a payment at least 3 business days before the Payment Due Date and we do not stop
payment, we will be liable for your losses or damages.
Alternative Payment Methods If you know that we will be unable to process a scheduled automatic payment for any reason, then to avoid a late
payment charge, you must promptly send a certified check or money order to the “Payment Address” shown on the front of your monthly statement,
or, if offered, you may take advantage of any pay-by-phone or online payment service that we may make available to you from time to time. If you
make an alternative payment by postal mail or by pay-by-phone or online service while you are enrolled in an Automatic Payment Plan, we may treat
such payment as an additional payment and process your next Automatic Payment Plan payment as scheduled or may reduce your next Automatic
Payment Plan payment by the amount of any such additional payment received
Instructions for Mailed Payments If you pay by check or other written instrument, all payments, except disputed amounts, must be mailed or
delivered to us at the address for payments shown on your monthly statement. Payments received at the address on the payment coupon by 5:00
p.m. Central Time, Monday through Friday (except legal holidays) will be credited to your Account as of the date received. Payments must be
received with the payment coupon (bottom portion) of your statement in the enclosed return envelope. If payments are received at any other location
or without your payment coupon, crediting of those payments to your Account may be delayed.
Notice About Electronic Check Conversion. By providing a paper check as payment, you authorize us to use information from your check to
make a one-time electronic fund transfer from your account or to process the payment as a check transaction. When we use the information from
your check to make an electronic fund transfer, funds may be withdrawn from your account as soon as the same day we receive your payment, and
you will not receive your check back from your financial institution.
Application of Payments Subject to the requirements of applicable law, we will apply payments first to unpaid interest, fees and other charges, then
to Cash Advance transactions in the order in which they are posted to your Account and finally to Purchase transactions in the order in which they
are posted to your Account. We may apply payments to balances subject to special terms (including Balance Transfers, convenience checks and
other promotions) prior to non-promotional balances.
Disputed Payments‒Postdated Checks, Restrictive Endorsement Checks and Other Disputed or Qualified Payments You agree not to send
us partial payments marked “paid in full,” “without recourse,” or similar language. If you send such a payment, we may accept it without losing any of
our rights under this Agreement. All notices and written communications concerning postdated checks, restrictive endorsement checks
(including any check or other payment instrument that indicates that the payment constitutes “payment in full” of the amount owed or that
is tendered with other conditions or limitations or as full satisfaction of a disputed amount) or any other disputed, nonconf orming or
qualified payments, must be mailed or delivered to Dispute Resolution, P.O. Box 105374, Atlanta, GA 30348-5374. We may also accept late,
postdated or partial payments without losing any of our rights under the credit agreement governing your Account. (A postdated check is a check
dated later than the day it was actually presented for payment.) We are under no obligation to hold a postdated check and we reserve the right to
process every item presented as if dated the same date received by us or our check processor unless you give us adequate notice and a reasonable
opportunity to act on it. Except where such notice and opportunity is given, you may not hold us liable for depositing any postdated check.
INTEREST
Interest When your Account has an outstanding balance, we will assess periodic interest using a monthly periodic rate of interest. The monthly
periodic rate is determined by dividing the annual percentage rate (“APR”) by 12. Unless otherwise stated in your Pricing Disclosure, your APRs,
and corresponding monthly periodic rates, will vary with the market based on the Prime Rate, but no APR will exceed an annual percentage rate of
36%. See the accompanying Pricing Disclosure for the APRs and any “per transaction” interest charges applicable to your Account. Interest will be
imposed in amounts or at rates not in excess of those permitted by law.
Balances Subject To Interest We figure the interest charge on your Account by applying the applicable monthly periodic rate to the “average daily
balance” of your Account. We calculate the average daily balance separately for each type of balance (e.g., separately for Purchases, for Cash
Advances and for each balance subject to special terms such as Balance Transfers). For each type of balance, we take the beginning balance each
day (including accrued but unpaid interest charges), add new transactions (including purchases, cash advances and balance transfers) and any
applicable fees, and subtract the applicable portion of any payments or credits. This gives us the daily balance for each type of balance. Then, we
add up all the daily balances for a particular type of balance for the billing cycle and divide the total by the number of days in the billing cycle. This
gives us the “average daily balance” for that type of balance.
When Interest Begins To Accrue, Grace Period Except as provided below, Purchases, Cash Advances and Balance Transfers begin to accrue
interest from the date of the transaction (or, at our option, from the date they are posted to your Account) and continue to accrue interest until the
charge is paid in full. You will have at least a 25 day grace period (“Grace Period”) on Purchases. This means you have at least 25 days from the
closing date on your monthly statement to pay for new Purchases before we charge interest on them. However, the Grace Period will apply only in
billing periods when (1) you paid the previous balance in full or (2) you had a previous balance of $0.00 or a credit balance. (The previous balance is
the balance identified as the New Balance on the monthly statement for the previous billing period, subject to subsequent adjustment, as
appropriate.) When the Grace Period applies, we will not impose interest on (1) any new Purchases if we receive payment of the appropriate full
New Balance on the monthly statement for that billing period by the due date shown on that statement or (2) the portion of the Purchase balance
repaid if we receive payment of only part of the New Balance by the due date. There is no time period within which you can avoid interest on
Cash Advances or Balance Transfers.
Deferred Interest Balances If you make a purchase under a special Deferred Interest Plan promotion, we will calculate interest for each cycle as
described above. To avoid such interest you must pay the total purchase amount and accrued fees and charges that are subject to deferred interest
(“Promotional Balance”) in full by the last day of the promotional period as shown in the Deferred Interest Charge Calculation notice on the front of
your monthly statement. Making only minimum monthly payments during the promotional period will not pay off your Promotional Balance by the last

day of the promotional period. If you do not pay your Promotional Balance in full by such date, then the interest that has accrued from the date of
purchase through and including the last day of the promotional period (Deferred Interest Charge) will be added to your regular Purchase balance.
FEES
The following fees may be added to your Account (as a Purchase unless otherwise stated):
Annual Fee If your Account is subject to an Annual Fee, the amount of the fee is shown in the accompanying Pricing Disclosure. Annual fees
appear on your first monthly statement and thereafter on the anniversary date of your Account as long as your Account is open or you have an
outstanding balance. Annual Fees are not refundable, except as provided below or as otherwise required by applicable law. Annual Fees reduce
the amount of credit you have available for use.
Account Maintenance Fee If your Account is subject an Account Maintenance Fee, the amount of the fee is disclosed in the accompanying Pricing
Disclosure. Account Maintenance Fees are billed each month as long as your Account is open or you have an outstanding balance. Your payment
of an Account Maintenance Fee does not affect our right to close your Account or our ability to limit transactions on your Account.
Balance Transfer Fee If your Account is subject to a Balance Transfer Fee, the amount of the fee is disclosed in the accompanying Pricing
Disclosure. Balance Transfer Fees are charged on each Balance Transfer. This fee is deemed additional interest and will be added to your Balance
Transfer balance.
Cash Advance Fee If your Account is subject to a Cash Advance Fee, the amount of the fee is disclosed in the accompanying Pricing Disclosure.
Cash Advance Fees are charged each time you obtain a Cash Advance. This fee is deemed additional interest and will be added to your Cash
Advance balance.
Foreign Transaction Fee If your Account is subject to a Foreign Transaction Fee, the amount of the fee is disclosed in the accompanying Pricing
Disclosure. Foreign Transaction Fees are charged on any transaction made in a foreign currency that is converted to U.S. Dollars. This fee is
deemed additional interest and will be added to the appropriate Purchase, Cash Advance or Balance Transfer balance
Late Payment Fee If you fail to make a timely payment, you agree to pay a Late Payment Fee in the amount disclosed in the accompanying Pricing
Disclosure. For PR residents, you agree to pay the lesser of $15 or 5% of the payment due for payments that are over 15 days late. No Late
Payment Fee will exceed the amount of the related missed payment.
Returned Payment Fee To the greatest extent not prohibited by law, if any payment is dishonored or returned, you agree to pay a Returned
Payment Fee in the amount disclosed in the accompanying Pricing Disclosure. No Returned Payment Fee will exceed the amount of the refused or
returned payment.
Additional Card Fee (Authorized User) We will impose a fee for allowing access to another person who is not responsible for the repayment of the
Account. The amount of the Additional Card Fee (Authorized User) is disclosed with the accompanying Pricing Disclosure. The Additional Card Fee
will be imposed annually for each Authorized User.
REFUND OF INTEREST AND FEES We will credit all interest and fees to your Account if you close your account within 30 days of receiving your
initial Agreement and you make no charges to your Account. After such 30-day period, interest and fees generally are no longer avoidable or
refundable and you will be responsible for paying all interest and fees charged to your Account.
CONSENT TO RECEIVE ELECTRONIC DISCLOSURES If, when you applied for your Account or accepted an offer and verified your eligibility for
an Account, you agreed to receive electronic notices and disclosures in connection with your Account (whether at an electronic mail address that you
provided in your Application, at a website that we designate or otherwise), then, to the extent not prohibited by law, we may send notices concerning
the availability of Statements and other notices and disclosures to you at the electronic mail address that you provided in your Application, any
updated electronic mail address that you provide to us in writing, or on a website that we designate or otherwise, as mutually agreed. If you
subsequently choose to receive notices and disclosures by postal mail rather than electronically, then you agree to provide us with an updated postal
address in a timely manner to allow us to comply with any applicable requirements of law.
MONITORING AND RECORDING To ensure that you receive quality service, you agree that we may record all phone calls. These calls, between
you and our representatives, are evaluated by supervisors. It is our goal to provide prompt, consistent assistance and deliver accurate information in
a professional manner.
COMMUNICATING WITH YOU; CONSENT TO CONTACT BY ELECTRONIC AND OTHER MEANS We may contact you for any lawful reason,
including for the collection of amounts owed to us and for the offering of products or services in compliance with our Privacy Notice in effect from
time to time. No such contact will be deemed unsolicited. To the greatest extent not prohibited by applicable law, we may (i) contact you at any
address or telephone number (including wireless cellular telephone, VoIP or ported landline telephone number) that you may provide to us from time
to time; (ii) use any means of communication, including, but not limited to, postal mail, electronic mail, telephone or other technology, to reach you;
(iii) use automatic dialing and announcing devices which may play recorded messages; and (iv) send text messages to your telephone.
NOTICE OF CHANGES IN YOUR ELECTRONIC MAIL, TELEPHONE NUMBER OR OTHER INFORMATION You agree to notify us promptly of
any change in your electronic mail address, your postal address, your home telephone number, place of employment or other information provided in
your Application or otherwise provided to us from time to time, including porting a landline telephone number to a cellular number or VoIP, by writing
to us at Account Services, P.O. Box 105555, Atlanta, GA 30348-5555 or by calling us at 1-855-802-5572.
CHANGES IN TERMS We may, at any time in accordance with this Agreement and subject to the requirements of applicable law:
(i) terminate this Agreement; (ii) terminate your right to make future Purchases or take future Cash Advances or Balance Transfers;
(iii) change your Credit Limit; or (iv) add new terms or delete or change any terms and conditions of this Agreement relating to your
Account (including changing from a non-variable to a variable periodic rate, increasing any rate of interest, increasing or adding fees or
charges, changing the method of computing the balance upon which interest is assessed or changing the date upon which interest begin
to accrue). Changes that are favorable to you may be made at any time without prior notice. Changes in terms may be based upon
factors including, but not limited to, anti-fraud policies and procedures, your record of making timely payments and staying within your
established Credit Limit on your Account with us, your credit score and information contained in your credit report and your proper
maintenance of any checking account used to make your automatic payments, if applicable.

When required by applicable law, we will provide you with written notice of a new or deleted term or change in terms and offer you the
right to reject terms in the manner specified at the time of notice. No new term or change in the terms of this Agreement will affect your
obligation to pay all amounts owing under this Agreement.
ASSIGNMENT; TRANSFER We may sell, assign or transfer all or any portion of your Account and all or any portion of our rights under this
Agreement to any other person without prior notice to you. You may not sell, assign or transfer any of your rights under this Agreement.
LOST CARDS AND UNAUTHORIZED USE Contact us immediately if you believe your Card has been lost or stolen. Telephoning is the best way to
minimize your possible losses. If you believe that your Card has been lost or stolen, or that someone has made a Purchase on or transferred or may
transfer money from your Account without your permission, call us at 1-855-802-5572. You will not be liable for any such unauthorized use that
occurs after you notify us. You may, however, be liable for such unauthorized use that occurs before you notify us. In any case, your liability for
such unauthorized use will not exceed $50. Under MasterCard Rules, your liability for unauthorized MasterCard transactions on your Account is $0
if you notify us within two (2) business days and you exercise reasonable care in safeguarding your Card from loss, theft or unauthorized use. This
reduced liability does not apply if a PIN is used as the method of verification for a disputed transaction or you have reported two (2) or more incidents
of unauthorized use in the immediately preceding twelve (12) month period.
CREDIT REPORTS AND INFORMATION
Credit Reports You authorize us to make or have made any credit, employment or other investigative inquiries we deem appropriate to renew,
review or collect amounts owed to us on your Account. We also may obtain follow-up credit reports on you for any lawful purpose as long as you
have an outstanding balance.
Notice of Information Reporting We may report information about your Account to credit bureaus. Late payments, missed payments, or other
defaults on your Account may be reflected in your credit report.
Information Sharing You acknowledge and agree that we may share information about you with others in accordance with our Privacy Notice (a
copy of which we will provide to you and may be obtained from www.aspire.com/my-account as it is in effect from time to time).
Notice of Inaccurate Information If you believe that we have information about you that is inaccurate or that we have reported or may report to a
credit reporting agency information about you that is inaccurate, please notify us of the specific information that you believe is inaccurate by writing to
us at Account Services, P.O. Box 105555, Atlanta, GA 30348-5555.
ARBITRATION PROVISION (AGREEMENT TO ARBITRATE CLAIMS)
Unless you are a “covered borrower,” as defined under the Military Lending Act, 10 U.S. C. § 987, as amended, and except as otherwise stated
below, any Claim (as defined below) will be resolved by binding arbitration pursuant to (a) this Arbitration Provision and (b) the Code of Procedure of
the national arbitration organization to which the Claim is referred (as in effect when the Claim is filed). Claims will be referred to either Judicial
Arbitration and Mediation Services (“JAMS”) or the American Arbitration Association (“AAA”), as selected by the party electing to use arbitration.
Streamlined arbitration procedures will be used if available. If a selection by us of one of these organizations is unacceptable to you, you have the right,
within 30 days after you receive notice of our election, to select the other organization listed to serve as arbitration administrator. For purposes of this
Arbitration Provision, “Claim” means any claim, dispute or controversy (whether in contract, tort, or otherwise), past, present or future, (collectively,
"Claims") as further described below. (If for any reason a selected organization cannot, will not or ceases to serve as an arbitration administrator,
you or we may substitute another widely recognized arbitration organization that uses a similar code of procedure and is mutually acceptable to the
parties.)
Right To Reject Arbitration. You may reject this Arbitration Provision. If you do so, neither you nor we will have the right to engage in
arbitration. Rejecting this Arbitration Provision will have no effect on any of the other provisions in this Agreement. To reject this Arbitration
Provision, you must send us your written rejection within 60 days after we open your Account, or 60 days after any change in terms that affects this
Arbitration Provision, to Account Services Dispute Resolution, P.O. Box 105096, Atlanta, GA 30348-5096; ATTN: Consumer Credit Arbitration. In
your letter, you must give us the following information: Name, Address and Account number. The right to reject granted here applies solely to this
Arbitration Provision, and not to any other provision of this Agreement, or to any other agreement with us. In the event of a dispute over whether you
have provided a timely rejection notice, you must provide proof of delivery. Neither party may elect to arbitrate an individual Claim brought in small
claims court (or your state’s equivalent court, if any). However, if a Claim that is brought in small claims court is transferred or appealed to a different
court, either party may elect arbitration.
Significance of Arbitration; Limitations and Restrictions. IF YOU OR WE CHOOSE TO RESOLVE A CLAIM BY BINDING ARBITRATION,
NEITHER YOU NOR WE WILL HAVE THE RIGHT TO (i) HAVE A COURT OR JURY DECIDE THE CLAIM BEING ARBITRATED (ii) ENGAGE IN
PRE-ARBITRATION DISCOVERY (THAT IS, THE RIGHT TO OBTAIN INFORMATION FROM THE OTHER PARTY) TO THE SAME EXTENT
THAT YOU OR WE COULD IN COURT, (iii) PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS IN A
CLASS ACTION, IN COURT OR IN ARBITRATION, RELATING TO ANY CLAIM SUBJECT TO ARBITRATION OR (iv) JOIN OR CONSOLIDATE
CLAIMS OTHER THAN YOUR OWN OR OUR OWN. OTHER RIGHTS AVAILABLE IN COURT MAY NOT BE AVAILABLE IN ARBITRATION.
Except as set forth below, the arbitrator’s decision will be final and binding. Only a court may decide the validity of items (iii) and (iv) above. If
a court holds that items (iii) or (iv) are limited, invalid or unenforceable, then this entire Arbitration Provision will be null and void. You or we can
appeal any such holding. If a court holds that any other part(s) of this Arbitration Provision (other than items (iii) and (iv)) are invalid, then the
remaining parts of this Arbitration Provision will remain in force. An arbitrator will decide all other issues pertaining to arbitrability, validity,
interpretation and enforceability of this Arbitration Provision. The decision of an arbitrator is as enforceable as any court order and may be subject to
very limited review by a court. An arbitrator may decide a Claim upon the submission of documents alone, or a party may request a telephonic
hearing if permitted by applicable rules. The exchange of non-privileged information relevant to the Claim, between the parties, is permitted and
encouraged. Either party may submit relevant information, documents or exhibits to the arbitrator for consideration in deciding a Claim.
Broad Meaning of “Claims.” The term "Claims" in this Arbitration Provision is to be given the broadest possible meaning and includes (by way of
example and without limitation) Claims arising from or relating to (i) the application for or issuance of your Account, (ii) use, terms, change in terms or
addition of terms, closing or collection of your Account or this Agreement, (iii) advertisements, promotions or oral or written statements related to
your Account, including any Claims regarding information obtained by us from, or reported by us to, credit reporting agencies or others, (iv) Claims
between you and our parent corporations, wholly or majority owned subsidiaries, affiliates, predecessors, successors, assigns, agents, independent
contractors, employees, officers, directors or representatives arising from your Account or this Agreement and (v) Claims regarding the validity,
enforceability or scope of this Arbitration Provision or this Agreement.
Arbitration Procedure and Costs. For a copy of relevant codes of procedure, to file a Claim or for other information about JAMS and AAA, write them,
visit their web site or call them at: (i) for JAMS, 1920 Main Street, Suite 300, Irvine, CA 92614 or info@jamsadr.com, http://www.jamsadr.com, 1-800352-5267; or (ii) for AAA, 1633 Broadway, 10th Floor, New York, NY 10019 or websitemail@adr.org, http://www.adr.org, 1-800-778-7879. If either
party fails to submit to arbitration following a proper demand to do so, that party will bear the costs and expenses, including reasonable attorneys’
fees, incurred by the party compelling arbitration. Any physical arbitration hearing that you attend will be held in the federal judicialdistrict

where you live at the time the Claim is filed. The party initiating the arbitration will pay the filing fee. You may seek a waiver of the initial filing fee or
any other fees incurred in arbitration. If you seek, but do not qualify for, a waiver, we will consider any written request by you for us to pay or
reimburse you for all or part of such fees. Each party will pay for its respective attorneys’, experts’ and witness fees, regardless of which party
prevails in the arbitration. A party may recover any or all expenses from another party if the arbitrator, applying applicable law, so determines.
Allocation of fees and costs relating to appeals in arbitration will be handled in the same manner. For an explanation and schedule of the fees that
apply to an arbitration proceeding with JAMS, please visit http://www.jamsadr.com/rules-streamlined-arbitration; for AAA, visit
http://www.adr.org/consumer_arbitration. The appropriate fee schedule in effect from time to time is hereby incorporated by reference into this
Arbitration Provision. The cost of arbitration may be higher or lower than the cost of bringing your Claim in court, depending upon the nature of your
Claim and how the arbitration proceeds. Having more than one Claim and holding face-to-face hearings can increase the cost of arbitration. Again,
neither you nor we will be permitted to arbitrate claims on a class-wide (that is, on other than an individual) basis. An arbitration proceeding can
decide only your or our Claims. You cannot join other parties (or consolidate Claims) except with respect to persons who use your Account.
Governing Law for Arbitration. This Arbitration Provision is made pursuant to a transaction involving interstate commerce, and will be governed by
the Federal Arbitration Act ("FAA"), 9 U.S.C. §§ 1 et seq., as amended, notwithstanding any other governing law provision in this Agreement. The
arbitrator will apply applicable substantive law consistent with the FAA and applicable statutes of limitations and will honor claims of privilege
recognized at law. Judgment upon any arbitration award may be entered and enforced, including without limitation by garnishment, attachment,
foreclosure or other post-judgment remedies, in any court having jurisdiction. The arbitrator’s decision will be final and binding, except for any right
of appeal provided by the FAA, in which case any party can appeal the award to a three-arbitrator panel administered by the selected arbitration
administrator. The panel will reconsider de novo (that is, without deference to the ruling of the original arbitration) any aspect of the initial award
requested by the appealing party.
Continued Effect of Arbitration Provision. This Arbitration Provision will continue to govern any Claims that may arise without regard to any
termination or cancellation of your Account. If any portion of this Arbitration Provision (other than the provisions prohibiting class-wide arbitration,
joinder or consolidation) is deemed invalid or unenforceable under the FAA, it will not invalidate the remaining portions of this Arbitration Provision. If
a conflict or inconsistency arises between the code of procedures of the selected arbitration administrator and this Arbitration Provision, this
Arbitration Provision will control.
DELAY IN ENFORCEMENT We can delay or waive enforcing any of our rights under this Agreement or under applicable law without losing any of
those rights or any other rights. Even if we do not enforce our rights or remedies at any one time, we may enforce them at a later time.
SEVERABILITY Except as otherwise expressly provided in the Arbitration Provision, if any provision of this Agreement is finally determined to be
void or unenforceable under applicable law, rule or regulation, all other provisions of this Agreement shall still be valid and enforceable. Certain
provisions of this Agreement are stated as being subject to applicable law. Such provisions may be void, unenforceable or inapplicable in some
jurisdictions.
ENTIRE AGREEMENT This Agreement, including any other written, oral or electronic document incorporated into and made a part of this
Agreement, is the entire agreement between you and us relating to your Account and supersedes any other prior or contemporaneous agreement
between you and us relating to your Account. If there is any conflict between any one of these documents and this Agreement, the terms of this
Agreement control. This Agreement may not be amended except in accordance with the other provisions of this Agreement.
GOVERNING LAW FOR CREDIT This Agreement, and any claim, dispute or controversy (whether in contract, tort, or otherwise) at any
time arising from or relating to this Agreement, are governed by and construed in accordance with applicable federal law and, to the
extent not preempted by federal law, the laws of Missouri (without regard to internal principles of conflict of laws), except that the
arbitration provision is governed by the Federal Arbitration Act, 9 U.S.C. §§ 1 et seq. The legality, enforceability and interpretation of this
Agreement and the amounts contracted for, charged and reserved under this Agreement will be governed by such laws. We extend credit
pursuant to Section 408.145 of the Missouri Revised Statutes. You agree that this Agreement is made, executed and delivered in Missouri
and that we make all credit decisions, open all accounts and issue all proceeds from, impose all fees and charges in and receive all
payments from you, in our offices in Missouri. To the extent not preempted by federal law or subject to Missouri law, for purposes of state
law compliance, we have elected Section 12-103(a)(1) of the Interest and Usury statute and the Revolving Credit Accounts statute in
Maryland (Md. Com. Law Code § 12-103(a)(1) and §§ 12-501 et seq.).
YOU ACKNOWLEDGE THAT YOU HAVE RECEIVED (ELECTRONICALLY OR OTHERWISE) AN EXACT, COMPLETELY FILLED-IN, LEGIBLE
COPY OF THIS AGREEMENT, HAVE READ IT AND AGREE TO ITS TERMS.
NOTICE TO THE BUYER
1. DO NOT SIGN THIS AGREEMENT BEFORE YOU READ IT OR IF IT CONTAINS ANY BLANK SPACES.
2. YOU ARE ENTITLED TO AN EXACT, COMPLETELY FILLED IN COPY OF THE AGREEMENT YOU SIGN.
3. YOU HAVE THE RIGHT TO PAY, IN ADVANCE, THE FULL AMOUNT DUE.
CA RESIDENTS: Interest is compounded on unpaid amounts.

MD RESIDENTS: You have the right under Section 12-510 of the Commercial Law Code to receive an answer to your
written inquiry regarding the status of your account.
MO RESIDENTS: Oral agreements or commitments to loan money, extend credit or to forbear from enforcing repayment of a debt
including promises to extend or renew such debt are not enforceable. To protect you (borrower) and us (creditor) from misunderstanding
or disappointment, any agreements we reach covering such matters are contained in this writing, which is the complete and exclusive
statement of the agreement between us, except as we may later agree in writing to modify it.
NH RESIDENTS: This Agreement provides for reasonable attorneys’ fees to be awarded to us in an action against you involving this Agreement.
Reasonable attorney's fees will be awarded to you if you prevail in any action, suit or proceeding brought by us; or an action brought by you. If you
successfully assert a partial defense or set-off, recoupment or counterclaim to an action brought by us the court may withhold from us the entire
amount or such portion of the attorney fees as the court considers equitable.
NJ RESIDENTS: Because certain provisions of this agreement are subject to applicable law, they may be void, unenforceable or inapplicable in
some jurisdictions. None of these provisions, however, is void, unenforceable or inapplicable in New Jersey.
NY RESIDENTS: RETAIL INSTALMENT CREDIT AGREEMENT
WI RESIDENTS: No provision of a marital property agreement, a unilateral statement under section 766.59 or a court decree und er section
786.70 adversely affects the interest of the creditor unless the creditor, prior to the time the credit is granted, is furnished a copy of the
agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the creditor is incurred.

BUYER/CARDHOLDER Your name and address, our name and address and the date on any Application or any other document or record you sign
in connection with your Account are incorporated here and made a part of this Agreement and represent your name and address, our name and
address, and the date on this Agreement. An electronic record of your request for or acceptance of an Account or the consummation of a sales
transaction under this Agreement can represent your signature on this Agreement.
CREDITOR /s/ THE BANK OF MISSOURI, ST. ROBERT, MO
Rev. Date: March 2021
BILLING RIGHTS NOTICE
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Account Services Dispute Resolution
P.O. Box 105374
Atlanta, GA 30348-5374
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the
error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on thatamount.
• While you do not have to pay the amount in question, you are responsible for the remainder of yourbalance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we
think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you
do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter has been settled betweenus.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Account Services Dispute Resolution
P.O.
Box
105374
Atlanta, GA 30348-5374
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you asdelinquent.

